TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                        RECOVERY ACT


                      The Direct Pay Build America Bond
                     Compliance Check Program Has Yet to
                       Result in Wide-Scale Examinations



                                           June 3, 2011

                              Reference Number: 2011-11-053




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                         HIGHLIGHTS


THE DIRECT PAY BUILD AMERICA                       examinations. In fact, as of the end of our
BOND COMPLIANCE CHECK PROGRAM                      fieldwork, very few Build America Bond
HAS YET TO RESULT IN WIDE-SCALE                    examinations had been initiated, contrary to
EXAMINATIONS                                       bond industry fears. According to TEB office
                                                   management, these examinations were started
                                                   based on research and reviews of requests for
Highlights                                         subsidy payments, rather than responses to
                                                   compliance check questionnaires.
Final Report issued on June 3, 2011                While the TEB office questionnaires were
                                                   appropriate for gathering information for use in
Highlights of Reference Number: 2011-11-053        developing a longer term compliance strategy,
to the Internal Revenue Service Acting             the TEB office does not have formal written
Commissioner for the Tax Exempt and                procedures for developing and conducting
Government Entities Division.                      compliance checks. Procedures would be
                                                   beneficial to help TEB office employees develop
IMPACT ON TAXPAYERS                                future compliance check programs, provide
In February 2010, the Tax Exempt Bonds (TEB)       added assurance the IRS does not exceed its
office mailed 375 compliance check                 authority when executing such programs, and
questionnaires to issuers of Build America         ease concerns by improving transparency so the
Bonds, which resulted in concerns from the         bond community will have a better
bond industry that responses could result in       understanding of the compliance check process.
wide-scale examinations and potential loss of a    In addition, TIGTA could not evaluate the
Federal subsidy. TIGTA determined the              TEB office’s plans to address high-risk indicators
initiation and scope of compliance checks were     because the TEB office has yet to complete an
appropriate and, as of the end of our fieldwork,   in-depth review of the compliance check
very few Build America Bond examinations had       questionnaire responses and develop a longer
been initiated, contrary to bond industry fears.   term compliance plan.
However, written procedures for developing and
conducting compliance checks had not been          WHAT TIGTA RECOMMENDED
established. Procedures would provide added
assurance that the TEB office does not exceed      TIGTA recommended that the Director, TEB,
its authority when executing future compliance     Tax Exempt and Government Entities Division,
check programs and could ease concerns within      document formal guidelines for planning and
the bond community by improving the                conducting compliance check programs.
transparency of future compliance checks.          In their response to the report, IRS management
                                                   agreed with the recommendation. The TEB
WHY TIGTA DID THE AUDIT
                                                   office plans to publish new procedures on 1) the
The overall objectives of this review were to      roles and responsibilities of TEB office
evaluate the TEB office’s use of compliance        managers and employees assigned to the
checks to identify indications of a high risk of   program, 2) the planning process for developing
noncompliance for Build America Bonds and to       questionnaire projects, 3) documenting the
evaluate the TEB office’s plans to address the     approval for questionnaire projects, 4) the
high-risk indicators.                              process for evaluating collected data, and, 5) the
                                                   decision points for proceeding with follow-up
WHAT TIGTA FOUND                                   compliance efforts, including examinations when
The compliance check questionnaires issued by      appropriate.
the TEB office were appropriate for identifying
indications of a high risk of potential
noncompliance for Build America Bonds and did
not request information specific enough to start
                                                DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                June 3, 2011


 MEMORANDUM FOR ACTING COMMISSIONER, TAX EXEMPT AND GOVERNMENT
                ENTITIES DIVISION


 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Direct Pay Build America Bond Compliance
                                 Check Program Has Yet to Result in Wide-Scale Examinations
                                 (Audit # 201010111)

 This report presents the results of our review of the Internal Revenue Service’s use of the Build
 America Bond Compliance Check Program under the American Recovery and Reinvestment Act
 of 2009 (Recovery Act).1 The overall objectives of this review were to evaluate the Tax Exempt
 Bonds office’s use of compliance checks to identify indications of a high risk of noncompliance
 for Build America Bonds and to evaluate the Tax Exempt Bonds office’s plans to address the
 high-risk indicators. This review was conducted as part of our Fiscal Year 2011 Annual Audit
 Plan and addresses the major management challenge of Tax Compliance Initiatives.
 The Recovery Act provides separate funding to the Treasury Inspector General for Tax
 Administration through September 30, 2013, to be used in oversight activities of Internal
 Revenue Service programs. This audit was conducted using Recovery Act funds.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
 Organizations), at (202) 622-8500.




 1
     Pub. L. No. 111-5, 123 Stat. 115 (2009).
                                    The Direct Pay Build America Bond
                                   Compliance Check Program Has Yet to
                                     Result in Wide-Scale Examinations




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Initiation and Scope of the Build America Bonds
          Compliance Checks Were Appropriate; However, Plans
          to Identify and Address Potential High-Risk Indicators
          Have Not Been Developed............................................................................ Page 4
          The Tax Exempt Bonds Office Does Not Have
          Documented Guidelines for Developing and Initiating
          Compliance Check Programs ........................................................................ Page 5
                    Recommendation 1:.......................................................... Page 6


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Direct Pay Bonds Compliance Check Questionnaire .......... Page 12
          Appendix V – Previous Audit Coverage of Bond Provisions in
          the American Recovery and Reinvestment Act of 2009 ............................... Page 16
          Appendix VI – Analysis of 220 Bond Issuer Responses to the
          Direct Pay Bonds Compliance Check Questionnaires .................................. Page 17
          Appendix VII – Management’s Response to the Draft Report ..................... Page 20
        The Direct Pay Build America Bond
       Compliance Check Program Has Yet to
         Result in Wide-Scale Examinations




               Abbreviations

BAB      Build America Bond
EMMA     Electronic Municipal Market Access
IRS      Internal Revenue Service
TEB      Tax Exempt Bonds
                                 The Direct Pay Build America Bond
                                Compliance Check Program Has Yet to
                                  Result in Wide-Scale Examinations




                                              Background

The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 was enacted on
February 17, 2009, and created one specific type of bond known as a Build America
Bond (BAB). Between April 2009 and December 2010, more than $181 billion of BABs were
issued by 49 States, the District of Columbia, and 2 United States territories.
BABs were created in response to the unprecedented challenge that State and local governments
encountered accessing the credit markets during Calendar Year 2008. During that time, banks
and other financial institutions suffered significant investment losses and reduced their
involvement in tax-exempt municipal bonds. As a result, State and local governments could not
easily obtain funding for capital projects such as construction of highways, bridges, or schools.
The BAB program expired on December 31, 2010; however, legislation has been proposed to
reintroduce BABs with slightly different program requirements.
Bond investors (bondholders) earn interest income on their BAB investment, which is paid by
the State or local government that issued the bonds. Unlike tax-exempt bonds, BAB bondholders
must claim this interest income on their tax returns for the bond interest payments. BABs can be
issued with a direct pay or a tax credit option.
      •    Direct Payment Option – Under the direct payment option, the Department of the
           Treasury pays either the bond issuer or a designated third party 35 or 45 percent of the
           interest payable to bond investors. This partially offsets the State and local governments’
           cost of paying bond interest.
      •    Tax Credit Option – Under the tax credit option, bondholders receive a tax credit to be
           applied against their Federal income tax liability equal to generally 35 or 45 percent of
           the bond coupon interest.
BABs have unique rules when compared to traditional tax-exempt bonds, including that the issue
price of bonds can be only a minor or insignificant amount over the stated principal amount of
the bonds. For Direct Pay BABs, these rules include 1) a requirement that bond revenue be used
for capital improvements (e.g., construction of airports, hospitals, recreational and cultural
facilities, schools, and water infrastructure) and not for operating capital (e.g., funds used for
day-to-day operation of the entity such as paying salaries), and 2) the issuer is required to make
an irrevocable election and timely file a correctly completed Return for Credit Payments to
Issuers of Qualified Bonds (Form 8038-CP) in order to receive the credit payment from the


1
    Pub. L. No 111-5, 123 Stat. 115 (2009).
                                                                                               Page 1
                                The Direct Pay Build America Bond
                               Compliance Check Program Has Yet to
                                 Result in Wide-Scale Examinations



Federal Government over the life of the bond instead of having bondholders claim a tax credit on
their individual tax returns.
Upon passage of the Recovery Act, the Department of the Treasury directed the Internal
Revenue Service (IRS) to assess the risk associated with Recovery Act bonds, including BABs,
and to develop a plan to address risks that were identified. Tax Exempt Bonds (TEB) office
management, within the Tax Exempt and Government Entities Division, identified information
reporting requirements, refundable credit payments, and payments claimed from nonqualified
bonds as the potential risks associated with Recovery Act bonds. The TEB office determined
that because of the unique requirements of BABs, issuers may not understand or ensure that
compliance requirements are met. Based on this risk, the TEB office developed a compliance
check program to gather information on bond issuer understanding of the requirements so
TEB office management could better understand and identify remedies for customer issues and
reduce the need for future enforcement actions, such as examinations.
The TEB office developed a Direct Pay Bonds Compliance Check Program, and in
February 2010, it mailed 375 compliance check questionnaires2 to all issuers of Direct Pay BABs
issued from February through September 2009. Compliance checks serve a different purpose
and are not the same, legally, as examinations.
      •    Compliance checks are voluntary for IRS customers and provide the TEB office a
           method of gathering information to better understand customer needs and to identify
           appropriate remedies for compliance issues. Although bond issuers are not required to
           participate in compliance checks, they are an important part of the TEB office’s strategy
           to reduce the need for enforcement by keeping abreast of trends emerging in the
           tax-exempt and tax credit bond sector. Specifically, compliance checks evaluate
           post-issuance and record retention policies, procedures, and practices of the bond issuers,
           but do not include a review of books and records to determine an entity’s liability for
           taxes.
      •    Examinations are legal proceedings, require participation by IRS customers, and include
           a review of books and records to determine compliance with the Internal Revenue Code.
           Examinations usually do not occur until approximately 5 years after the bond transaction
           to allow time for completion of the final allocation of the proceeds.




2
    See Appendix IV for a copy of the Direct Pay Bonds Compliance Check Questionnaire.
                                                                                               Page 2
                              The Direct Pay Build America Bond
                             Compliance Check Program Has Yet to
                               Result in Wide-Scale Examinations



The audit was initiated because of bond issuer concerns that
appeared in the news media in the spring of Fiscal Year 2010           In Fiscal Year 2010, news
                                                                   articles appeared that expressed
about whether responding to the compliance checks would
                                                                   bond issuer concerns about the
result in wide-scale future examinations. Issuers were              Direct Pay Bonds Compliance
concerned that responding inappropriately to compliance                     Check Program.
check questions about issue price could lead to examinations
and eventual loss of the Federal subsidy. In the past, very
limited information was available to the IRS on the sales price of municipal bonds; however,
beginning in June 2009, trading information, including pricing, was required to be publicly
available on the Electronic Municipal Market Access (EMMA).3 Due to the Recovery Act
requirement of transparency on certain bond transactions, a spotlight was put on the issue of how
bond prices are set.
This is our fourth audit of Recovery Act bond provisions. See Appendix V for a synopsis of the
prior three audits.
This review was performed at the Tax Exempt and Government Entities Division TEB
Headquarters Office in Washington, D.C., and the TEB Compliance and Program Management
office located in St. Louis, Missouri, during the period August 2010 through January 2011. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. Detailed information on our audit
objectives, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
 The EMMA web site allows investors to view municipal bond trading trends to better understand market activity.
The EMMA provides snapshots of daily trade data based on municipal bond characteristics such as trade type, size,
sector, maturity, source of repayment, and type of coupon.
                                                                                                          Page 3
                          The Direct Pay Build America Bond
                         Compliance Check Program Has Yet to
                           Result in Wide-Scale Examinations




                                Results of Review

The compliance check questionnaires issued by the TEB office were appropriate for identifying
indications of a high risk of potential noncompliance for BABs. However, we could not evaluate
the TEB office’s plans to address high-risk indicators because the TEB office has yet to complete
a detailed review of the compliance check questionnaire responses and develop a longer term
compliance plan.
Based on our analysis of the compliance check questionnaire, we believe the questions were
appropriate because they were designed to elicit responses that could indicate a high risk of
potential noncompliance without requesting information specific enough to start examinations.
In fact, as of the end of our fieldwork, very few BAB examinations had been initiated, contrary
to bond industry fears. According to TEB office management, these examinations were started
based on research and reviews of requests for subsidy payments, rather than responses to
compliance check questionnaires.
While the TEB office questionnaires were appropriate for gathering information for use in
developing a longer term compliance strategy, the TEB office does not have formal written
procedures for developing and conducting compliance checks. Procedures would be beneficial
to help TEB office employees develop future compliance check programs, provide added
assurance the IRS does not exceed its authority when executing such programs, and ease
concerns by improving transparency so the bond community will have a better understanding of
the compliance check process.

The Initiation and Scope of the Build America Bonds Compliance
Checks Were Appropriate; However, Plans to Identify and Address
Potential High-Risk Indicators Have Not Been Developed
Our review determined that the manner in which the compliance check program was initiated
and the scope of the questions mailed to bond issuers were appropriate. Specifically:
   •   The compliance check questionnaire focused on whether the bond issuer had written
       procedures and record retention policies and whether bond trading activity was recorded
       on the EMMA.
   •   The design of the compliance check questionnaire did not suggest an examination or
       investigation of the bond issuer’s books and records.
   •   The compliance check questions did not solicit information that should be requested only
       during examination activity.
                                                                                          Page 4
                               The Direct Pay Build America Bond
                              Compliance Check Program Has Yet to
                                Result in Wide-Scale Examinations



At the time of our audit, TEB office management had not performed a detailed review of the
220 issuer responses to the compliance check questionnaires because they were waiting to
determine if additional responses would be received. Although TEB office management has not
performed a detailed review, our review and analysis of the 220 compliance check responses
from bond issuers identified indicators of a high risk of potential noncompliance based on
answers to the issues covered on the questionnaire. See Appendix VI for our analysis.
TEB office management stated they plan to conduct additional detailed analysis of compliance
check responses, along with a review of information such as data from the Master File,4
Municipal Securities Rulemaking Board,5 the EMMA, Statistics of Income Distributed
Processing Image Net,6 and Returns Inventory and Classification System,7 to identify indications
of a high risk of potential noncompliance. If indicators of potential noncompliance are
identified, the TEB office can address the potential risk through programs that are already in
place, such as the Education and Outreach Program, the Voluntary Closing Agreement Program,
or the Examination Program.
At the time of our audit, the TEB office had opened several examinations of BABs. The
potential risk indicators that eventually resulted in the opening of examinations were identified
from research and reviews of requests for subsidy payments, rather than responses to compliance
check questionnaires. TEB office management stressed that compliance check responses alone
would never provide an indication of potential noncompliance strong enough to result in
examinations. However, until this understanding is strengthened through implementation of
formal guidelines for planning and conducting compliance check programs, TEB office
management will not have assurance that their compliance check programs will comply with the
Internal Revenue Code or that useful information will be gathered to ensure indicators of
potential noncompliance are identified, evaluated, and appropriately addressed.

The Tax Exempt Bonds Office Does Not Have Documented Guidelines
for Developing and Initiating Compliance Check Programs
The Standards for Internal Control in the Federal Government requires that internal controls need
to be clearly documented in management directives, administrative policies, or operating

4
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
5
  A regulating body that creates rules and policies for investment firms and banks in the issuance and sale of
municipal bonds, notes, and other municipal securities by States, cities, and counties.
6
  A Statistics of Income Division computer system that includes databases, applications, and scanned returns to
support the IRS’s requirement to report to Congress annually on the numbers and types of returns filed, the
characteristics of those returns, and the money amounts reported on those returns.
7
  The Tax Exempt and Government Entities Division’s computer system that provides access to filing, processing,
and posting of returns.
                                                                                                          Page 5
                           The Direct Pay Build America Bond
                          Compliance Check Program Has Yet to
                            Result in Wide-Scale Examinations



manuals. However, TEB office internal guidelines do not include formal written procedures for
developing and conducting compliance checks. Therefore, the TEB office did not document a
formal plan for development and execution of the Direct Pay Compliance Check program.
Instead, the program was based on the “Risk Assessment and Impact Analysis” process required
by the Department of the Treasury to document risks, plans of action, and expected completion
dates of tasks for addressing risks for the Recovery Act bonds. In addition, the questionnaire
was patterned after a prior TEB office compliance check program that did not include a formal
plan and a compliance check program from another IRS office that did include a formal plan.
The TEB office had not developed guidance because of time pressures to begin assessing the
risks associated with BABs. Without documented guidance for future projects, TEB office
employees may not develop and initiate compliance check programs that are within their
statutory authority, or gather information that is useful for assessing risk. In addition, increased
burden could be created for bond issuers by requesting information that is unnecessary, and
information gathered may not be useful if results are not properly anticipated and plans
developed to evaluate indicators for measuring potential noncompliance. Without adequately
designed and useful compliance programs, the TEB office may not have an understanding of the
potential sources of risk in order to be able to address potential noncompliance, if needed. Also,
documenting compliance check procedures could reduce concerns, such as those expressed in the
news media, by increasing awareness so the bond community will have a better understanding of
the compliance check process.

Recommendation
Recommendation 1: The Director, TEB, Tax Exempt and Government Entities Division,
should document formal guidelines for planning and conducting compliance check programs.
These guidelines should include, but not be limited to:
   •   Documenting the purpose, goals, anticipation of results; how the results will be collected
       and evaluated; and decision points for proceeding to examinations. These guidelines
       should ensure that the scope and execution of compliance checks are within the statutory
       authority of the TEB office.
   •   Requiring a review and approval process to include the basis for proceeding with the
       compliance check program.
   •   Including an explanation of the responsibilities of team members.
       Management’s Response: Tax Exempt and Government Entities Division
       management agreed with this recommendation and will publish guidelines for the
       TEB office compliance check program. This guidance will include: 1) the roles and
       responsibilities of TEB office managers and employees assigned to the program, 2) the
       planning process for developing questionnaire projects, 3) documenting the approval for
                                                                                             Page 6
                   The Direct Pay Build America Bond
                  Compliance Check Program Has Yet to
                    Result in Wide-Scale Examinations



questionnaire projects, 4) the process for evaluating collected data, and 5) the decision
points for proceeding with follow-up compliance efforts, including examinations when
appropriate.




                                                                                     Page 7
                          The Direct Pay Build America Bond
                         Compliance Check Program Has Yet to
                           Result in Wide-Scale Examinations



                                                                                 Appendix I

       Detailed Objectives, Scope, and Methodology

Our overall objectives were to evaluate the TEB office’s use of compliance checks to identify
indications of a high risk of noncompliance for BABs and to evaluate the TEB office’s plans to
address the high-risk indicators. To accomplish this, we:
I.     Evaluated the controls over the development of compliance check questionnaires to
       assess the risk of BAB noncompliance.
       A. Determined whether the TEB office developed a written plan documenting its
          objective and methodology of how the risk assessment would be conducted.
       B. Compared the risk assessment plan to the Internal Revenue Manual and determined
          whether the questions exceeded IRS written procedures for assessing the risk of
          noncompliance prior to opening examinations.
       C. Evaluated the compliance check questions and determined whether all questions were
          in line with the goals and purpose of the risk assessment as documented in the risk
          assessment plan or other documentation.
II.    Determined whether controls ensured the TEB office would make appropriate use of the
       compliance check results.
       A. Analyzed the compliance check questions and a judgmental sample of issuer
          responses to identify the types and purpose of information requested by the
          questionnaire. A judgmental sample of 30 issuer responses from a population of
          220 responses was selected and reviewed. Judgmental sampling techniques were
          used to validate the accuracy and completeness of the data captured from the
          questionnaires and were not used to project the results across the population.
       B. Determined how responses to compliance check questions would be evaluated and
          identified the potential use of the information.
III.   Based on the results of the analyses performed by the TEB office, determined what
       subsequent actions were planned to address indicators of potential noncompliance.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems

                                                                                           Page 8
                         The Direct Pay Build America Bond
                        Compliance Check Program Has Yet to
                          Result in Wide-Scale Examinations



for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the Internal Revenue Code,
IRS publications and letters defining compliance checks, and the compliance check
questionnaire. We evaluated these controls by interviewing management, reviewing the
questionnaires, reviewing responses to the questionnaires, and reviewing other applicable
documentation.




                                                                                     Page 9
                        The Direct Pay Build America Bond
                       Compliance Check Program Has Yet to
                         Result in Wide-Scale Examinations



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Andrew J. Burns, Lead Auditor
Yolanda D. Brown, Auditor
Carol A. Rowland, Auditor




                                                                                  Page 10
                        The Direct Pay Build America Bond
                       Compliance Check Program Has Yet to
                         Result in Wide-Scale Examinations



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Director, Tax Exempt Bonds, Tax Exempt and Government Entities Division SE:T:GE:TEB
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 11
            The Direct Pay Build America Bond
           Compliance Check Program Has Yet to
             Result in Wide-Scale Examinations



                                                 Appendix IV

Direct Pay Bonds Compliance Check Questionnaire




                                                      Page 12
 The Direct Pay Build America Bond
Compliance Check Program Has Yet to
  Result in Wide-Scale Examinations




                                      Page 13
 The Direct Pay Build America Bond
Compliance Check Program Has Yet to
  Result in Wide-Scale Examinations




                                      Page 14
 The Direct Pay Build America Bond
Compliance Check Program Has Yet to
  Result in Wide-Scale Examinations




                                      Page 15
                                  The Direct Pay Build America Bond
                                 Compliance Check Program Has Yet to
                                   Result in Wide-Scale Examinations



                                                                                      Appendix V

     Previous Audit Coverage of Bond Provisions in the
     American Recovery and Reinvestment Act of 20091

                         Title                                         Results
Observations About Annual Dollar Limits for    The American Recovery and Reinvestment Act of 2009
American Recovery and Reinvestment Act of      (Recovery Act) authorizes State and local governments
2009 Bonds (Reference Number 2010-11-016,      to issue more than $45 billion in new bonds, some with
dated January 8, 2010)                         volume caps on the dollar amounts that can be issued.
                                               The TEB office will need to be vigilant to ensure that
                                               Recovery Act bonds are not issued in excess of annual
                                               limits. If annual limits are exceeded, the Federal
                                               Government risks losing future tax revenue because
                                               excess Recovery Act bonds may not be eligible for tax
                                               credits or may be taxable. The TEB office believes it
                                               has taken steps to ensure it is adequately monitoring the
                                               volumes of Recovery Act bonds.
Initial Published Guidance for American        The Recovery Act authorizes new and expanded bond
Recovery and Reinvestment Act of 2009 Bonds    financing subsidies. The initial guidance published by
Was Complete, Accurate, and Consistent         the IRS in the form of notices was complete, accurate,
(Reference Number 2010-11-035, dated           and consistent with the tax-exempt and tax credit bond
March 16, 2010)                                requirements of the Recovery Act. The notices were
                                               issued quickly to help bond issuers understand how to
                                               issue tax-exempt and tax credit bonds intended to
                                               stimulate the economy by preserving and creating jobs.
Initial Build America Bond Subsidy Payments    The Recovery Act created a new type of bond, known
Were Processed Accurately and Timely           as BABs, for which the Federal Government will
(Reference Number 2010-11-083, dated           partially offset the State and local governments’ cost of
July 14, 2010)                                 paying bond interest. Generally, all complete requests
                                               for payment of the BAB Federal subsidies were
                                               processed accurately, timely, and without indications of
                                               fraudulent or erroneous disbursement.




1
    Pub. L. No 111-5, 123 Stat. 115 (2009).
                                                                                               Page 16
                           The Direct Pay Build America Bond
                          Compliance Check Program Has Yet to
                            Result in Wide-Scale Examinations



                                                                                      Appendix VI

    Analysis of 220 Bond Issuer Responses to the
 Direct Pay Bonds Compliance Check Questionnaires

   Compliance Check Question                       TIGTA Analysis of Issuer Responses
Do you have written procedures to       Sixty-seven percent of the issuers indicated they have written
ensure that none of the maturities of   procedures to ensure compliance with Internal Revenue Code
your Direct Pay Bonds are issued with   Section 54AA (d)(2)(C).
more than a de minimis amount of
                                        Written procedures are not a requirement; however, they are
premium as required by Internal
                                        important in assisting the bond issuers with monitoring the bond
Revenue Code Section 54AA
                                        throughout its life to assure compliance. If bonds fall out of
(d)(2)(C)?
                                        compliance, the potential exists that the BAB status of the bond
                                        could be revoked and issuers may not continue to receive the
                                        subsidy from the Federal Government. For example, if a school
                                        board issued BABs without formal written procedures, future
                                        employees of the board may not understand what is needed to
                                        ensure compliance with the Internal Revenue Code. Therefore,
                                        the bond could lose its status as a BAB and the Federal
                                        Government could discontinue the Federal subsidy that partially
                                        offsets the State and local governments’ cost of paying bond
                                        interest.
                                        We believe the absence of written procedures is an indicator of
                                        potential noncompliance.
Are records of secondary market         Seventy percent of issuers indicated records of secondary
trading activity for your Direct Pay    market trading activity are available on the EMMA.
Bonds available through the Municipal
                                        Access to secondary market trading activity provides bond
Securities Rulemaking Board’s
                                        investors key information needed when investing in municipal
Electronic Municipal Market Access
                                        securities, allows the bond issuers to monitor the bonds’ trading
System (EMMA)?
                                        prices to verify information provided by the underwriters, and
                                        allows the bond counsel to ensure there is no change to their tax
                                        opinion. If secondary market trading activity is not available in
                                        a centralized location, municipal market participants will not
                                        have easy access to the most recent sales information.
                                        We believe not entering secondary market trading activity on
                                        the EMMA when required is an indicator of potential
                                        noncompliance.


                                                                                                Page 17
                             The Direct Pay Build America Bond
                            Compliance Check Program Has Yet to
                              Result in Wide-Scale Examinations



   Compliance Check Question                         TIGTA Analysis of Issuer Responses
Do you have written procedures to          Seventy-six percent of issuers indicated written procedures are
ensure that your Direct Pay Bonds          maintained to ensure bonds remain in compliance with the
remain in compliance with Federal tax      Federal tax requirements.
requirements after the bonds are
                                           If the Federal requirements are not met, the bonds may no
issued?
                                           longer qualify as BABs and, therefore, could potentially lose
                                           the Federal subsidy payment of 35 or 45 percent of the interest
                                           payable to bond investors.
                                           We believe that not documenting procedures to ensure bonds
                                           remain in compliance with the Internal Revenue Code after
                                           bonds are issued is an indicator of potential noncompliance.
Do you have written procedures to          Fifty-nine percent of issuers indicated written procedures are
ensure timely identification of            maintained to ensure timely identification of violations of
violations of Federal tax requirements     Federal tax requirements after bond issuance.
after your Direct Pay Bonds are issued
                                           Written procedures are important to prevent bond issuers
and the timely correction of any
                                           jeopardizing the bond status. If the Federal requirements are
identified violation(s) through remedial
                                           not met, or noncompliance is not identified and corrected, the
actions described in the Treasury
                                           bonds may no longer qualify as BABs and, therefore, could
Regulations or through the Tax Exempt
                                           potentially lose the Federal subsidy payment of 35 or
Bonds Voluntary Closing Agreement
                                           45 percent of the interest payable to bond investors.
Program described under
Notice 2008-31?                            We believe that not documenting procedures to ensure timely
                                           identification of violations of Federal tax requirements after
                                           bonds are issued is an indicator of potential noncompliance.
Do you maintain records necessary to       Ninety-nine percent of issuers indicated records are maintained
support the status of the bonds as         to support the status of the bonds qualified to receive the tax
qualified to receive the tax advantaged    advantaged treatment under Internal Revenue Code
treatment described in Internal            Section 54AA (g).
Revenue Code Section 54AA (g)?
                                           It is important to maintain documentation for the sale of the
                                           bond to support the BAB status to ensure continued receipt of
                                           the Federal subsidy payment of 35 or 45 percent of the interest
                                           payable to bond investors.
                                           We believe not maintaining appropriate documentation to
                                           support the tax advantaged treatment described in Internal
                                           Revenue Code Section 54AA (g) would be an indicator of
                                           potential noncompliance.




                                                                                                   Page 18
                         The Direct Pay Build America Bond
                        Compliance Check Program Has Yet to
                          Result in Wide-Scale Examinations



  Compliance Check Question                TIGTA Analysis of Issuer Responses
How do you maintain your bond    All issuers indicated bond records are maintained on paper or
records?                         electronic media.
                                 It is important to maintain documentation for the sale of the
                                 bond to support the BAB status and ensure continued receipt of
                                 the Federal subsidy payment of 35 or 45 percent of the interest
                                 payable to bond investors.
                                 We believe not maintaining appropriate documentation in
                                 either paper or electronic media to support the tax
                                 advantaged treatment described in Internal Revenue Code
                                 Section 54AA (g) would be an indicator of potential
                                 noncompliance.




                                                                                        Page 19
         The Direct Pay Build America Bond
        Compliance Check Program Has Yet to
          Result in Wide-Scale Examinations



                                              Appendix VII

Management’s Response to the Draft Report




                                                    Page 20
 The Direct Pay Build America Bond
Compliance Check Program Has Yet to
  Result in Wide-Scale Examinations




                                      Page 21
 The Direct Pay Build America Bond
Compliance Check Program Has Yet to
  Result in Wide-Scale Examinations




                                      Page 22
